1

INDEX TO APPENDIX

2

of Decisions of the Nevada Courts to which review is sought.

3

Exhibit No.

4

B. Order; Nevada Supreme Court Filed July 3, 2019

0004

5

C. Order; Nevada Supreme Court Filed July 31, 2019

0006

Page No.

6 E. Order; Nevada Supreme Court of Appeals Filed June 5, 2020

0011

7 F. Order; Nevada Supreme Court of Appeals Filed July 2, 2020

0016

8

0018

G. Order; Nevada Supreme Court of Appeals Filed August 24, 2020

9 I. Order; Nevada Supreme Court Filed September 10, 2020

0024

10 J. Order; Nevada Supreme Court Filed October 14, 2020

0026

11

K. Order; Nevada Supreme Court Filed November 6, 2020

0029

12

M. Order; Nevada Supreme Court Filed December 3, 2020

0033

13

P. Order; Nevada Supreme Court Filed March 3, 2020

0039

14
15
16
17
18
19
20

21
22
23
24
25

26
27
28
Centofanti | Petition for Writ of Certiorari 071521

-19PETITION FOR WRIT OF CERTIORARI

A-®—
\
/

(

3
4

3

rJ

I

;
I

r

r-

-r
i.

!

0
: T_s,;

;

..u.

4pP' 0Q04
- IN THE SUPREME-COURT OF THE STATE OF NEVADA

ALFRED P. CENTOFANTL III,
Appellant

No. 78193
1

VS.

THE STATE OF NEVADA,
Respondent.

m
§®S3

JUL 0 3 2019
ELIZABETH A. BROWN
CLERK OR SUS=RE!ViE COURT
BY___
DEPUTY CLERkTT

ORDER DENYING MOTION

On June 19, 2019, this court granted appellant’s request for a
90-day extension of time to file the opening brief or informal brief for pro se
parties. Appellant has now filed a “supplement” to his original motion,
requesting an extension of 120 days instead of 90 days. As cause for the
extension, appellant suggests that he is developing “additional medical
information” to provide to this court for resolution of this appeal. No cause
appearing, the motion for a 120-day extension is denied. This court's review
on appeal is limited to the documents filed in or considered by the district
court in the underlying proceedings. See Carson Ready Mix, Inc., u. First
Nat'l Bank ofNev., 97 Nev. 474, 476, 635 P.2d 276, 277 (1981); NRAP 10(a)
and (b) (together indicating that record on appeal consists of documents and
exhibits filed in the district court, transcripts, minutes, and docket entries).
Failure to timely file the opening brief or informal brief may result in
disposition of this appeal without a brief from appellant. NRAP 31(d)(1).
It is so ORDERED.

u
cc:
Supreme Court
of

J

, A..C.J.

Alfred P. Centofanti, III
Attorney General/Carson City
Clark County District Attorney

Nevada
(O) 1947A

B«an—irnuiMi

l4-2SMfcO

App, POOS'

c.

^Xn\DT

\D\

*

\j

A pp 006 Q

IN THE SUPREME..C.O.UEI OE '1TIE STATE OF NEVADA -

ALFRED P. CENTOFANTI, III,
Appellant,

No. 78193
F® I

VS.

THE STATE OF NEVADA,
Respondent.
ORDER

rli

gaga m

■ ■

JUL 31 2019
EUZAJBETHA. BROWN
CLERK OF SUPREME COURT
BY___

D£PUT/ CL&'RN n

This is a pro se appeal from an order denying a postconviction
A

/

petition for a writ of habeas corpus. Appellant has filed a motion including
a number of requests. Primarily appellant has filed a transcript request
form pursuant to NRAP 9(b). At this stage of the proceedings, this court is
unable to determine which transcripts, if any, are necessary for this court’s
review on appeal, and therefore, preparation of the requested transcripts is
denied at this time. However, as this appeal proceeds, the court will
consider the necessity of transcripts and may order their preparation at a
later date. See NRAP 9(b)(1)(C). Because this court declines at this time to
order the transcripts, appellant’s motion for an extension of time to file his
opening brief or informal brief for pro se parties is denied. The brief remains
due by September 30, 2019. If no brief is filed, the court may decide the
appeal based on the record without briefing as provided in Rule 34(g). NRAP
32(d)(1).
Appellant requests the appointment of appellate counsel.
Appellant is not entitled to appointed counsel at the state’s expense in
postconviction proceedings. See Brown v. McDaniel, 130 Nev. 565, 331 P.3d
867 (2014); see also Coleman v. Thompson, 501 U.S. 722, 755 (1991).
Accordingly, the motion is denied.

Supreme: Court
of

Nevada
D) I947A

ftpp 06ey

Appellant s request--for-an index of the record on- appeal is
granted. The clerk of thi s court shall mail to appellant a copy of the table of
contents of the record on appeal.
It is so ORDERED.

Pltkiuvu.
cc:

Alfred P. Centofanti, III
Attorney General/Carson City
Clark County District Attorney

Supreme: Court
of

Nevada

2

, A.C.J.

0949:
1~~

i

i

I.

-I

i

-Ii
t.

i

\
t

;

!

.1

.lL.
r-

!
J.

!

oo:\
IN THE COURT OP APPEALS OFTHE STATE OF NEVADA-----

ALFRED P. CENTOFANTI, III,
Appellant,

No. 78193-COA

vs.

THE STATE OF NEVADA,
Respondent.

JUN G D Q2o
EliZKSV- ■K CROW,']

clerMjf svpreme coyi

ORDER OF AFFIRMANCE

BY

DEPUTY CLERK

Alfred P. Centofanti, III, appeals from an order of the district
court denying; a postconviction petition for a writ of habeas corpus. Eighth
Judicial District Court, Clark County; Joseph T. Bonaventure, Senior
Judge.
Centofanti filed his petition on April 24, 2012, more than five
years after issuance of the remittitur on direct appeal on March 27, 2007.
See Centofanti, III v. State, Docket No. 44984 (Order of Affirmance,
December 27, 2006). Thus, Centofanti’s petition was untimely filed. See
NRS 34.726(1). Moreover, Centofanti’s petition was successive because he
had previously filed a postconviction petition for a writ of habeas corpus,
and it constituted an abuse of the writ as he raised claims new and different
from those raised in his previous petition.1 See NRS 34.810(l)(b)(2); NRS
34.810(2).

Centofanti’s petition was procedurally barred absent a

demonstration of good cause and actual prejudice. See NRS 34.726(1); NRS
34,810(l)(b); NRS 34.810(3).

1 Centofanti, III v State, Docket No. 58562 (Order of Affirmance, June
3, 2013).
Court of Appeals
of

Nevada
<Ot IW71I

V? ► if x&O

''

V A

Centofanti claimed he had good cause to overcome the
procedural bars because his counsel for the first postconviction proceedings
had a conflict of interest as he represented Centofanti on direct appeal. The
district court found Centofanti s conflict-of-interest claim provided good
cause to overcome the procedural bars and denied his claims on the merits.
A claim of ineffective assistance of counsel may provide good
cause but only where there is a right to counsel (statutory or constitutional)
and the right to the effective assistance of counsel, Crump v. Warden, 113
Nev. 293, 303, 934 P.2d 247, 253 (1997); McKague u. Warden, 112 Nev. 159,
165 n.5, 912 P.2d 255, 258 n.5 (1996), and only where the good cause claim
explains the procedural defects and is not itself procedurally barred,
Hathaway v. State, 119 Nev. 248, 252, 71 P.3d 503, 506 (2003).
A conflict-of-interest claim is a claim of ineffective assistance
because counsel’s breach of the duty of loyalty gives rise to a claim that
counsel was ineffective due to a conflict of interest.

See Strickland v.

Washington, 466 U.S. 668, 688, 692 (1984) (framing a conflict-of-interest
claim as a claim that the defendant was denied the effective assistance of
counsel).

A conflict-of-interest claim thus requires there be a right to

counsel and a right to the effective assistance of counsel. In Nevada, there
is no constitutional or statutory right to postconviction counsel in non­
capital cases and thus no right to the effective assistance of postconviction
counsel in such cases. See Brown v. McDaniel, 130 Nev. 565, 569, 331 P.3d
867, 870 (2014).

Because Centofanti did not have a constitutional or

statutory right to postconviction counsel, he had no right to the effective
assistance of postconviction counsel. Accordingly, Centofanti’s assertion of
postconviction counsel’s conflict of interest cannot provide good cause to
overcome the procedural bars. Therefore, the district court erred in finding
Court of Appeals
of

Nevada
(0> I1M7H «lgf§|*>

2

- I

Centofantfhad good cause to overcome the procedural bars'. Nevertheless,
because the district court reached the correct result by denying the petition,
we affirm. See Wyatt, v. Stale, 86 Nev. 294, 298, 468 P.2d 338, 341 (1970).
Next, Centofanti argues the district court erred by denying the
petition without conducting an evidentiary hearing concerning the claims
his postconviction counsel did not raise during the prior postconviction
proceedings. Centofanti also contends the district court erred by declining
to permit him to conduct discovery. To warrant an evidentiary hearing, a
petitioner must raise claims that are supported by specific allegations not
belied by the record, and if true, would entitle him to relief. Rubio v. Slate,
124 Nev. 1032, 1046 & n.53, 194 P,3d 1224, 1233-34 & n.53 (2008) (noting
a district court need not conduct an evidentiary hearing concerning claims
that are procedurally barred when the petitioner cannot overcome the
procedural bars). Because Centofanti did not demonstrate good cause, he
fails to demonstrate the district court erred by declining to conduct an
evidentiary hearing concerning his procedurally-barred claims. In addition,
Centofanti fails to demonstrate he was entitled to conduct discovery. See
NRS 34.780(2). Therefore, Centofanti is not entitled to relief based upon
these claims.
Finally, Centofanti argues that the district court’s order was
improper as the order was prepared by the State without allowing him an
opportunity to review and respond to it. As discussed previously, Centofanti
failed to demonstrate he had good cause to overcome the procedural bars
and the district court properly denied relief,

Centofanti does not

demonstrate any failure to permit him to review and respond to the
proposed order adversely affected the outcome of the proceedings or his
ability to seek full appellate review. Therefore, even assuming the district

Couirr or Appeals
OF

Nevada

3

)
HM

Aff

court erred by not allowing Centofanti the opportunity to review and
respond to the proposed order, cfByford u. Slate, 123 Nev. 67, 69, 156 P.3d
691, 692 (2007) (stating that when a district court requests a party to
prepare a proposed order, the court must ensure that the other parties are
aware of the request and given the opportunity to respond to the proposed
order), we conclude any error was harmless and Centofanti fails to
demonstrate he suffered prejudice, see NRS 178.598 (stating that “[a]ny
error, defect, irregularity or variance which does not affect substantial
rights shall be disregarded”). Therefore, Centofanti is not entitled to relief
based upon this claim. Accordingly, we
ORDER the judgment of the district court AFFIRMED.

C.J.
Gibbons

J.
Tao

,
Bulla

cc:

Chief Judge, Eighth Judicial District Court
Hon. Joseph T. Bonaventure, Senior Judge
Alfred P. Centofanti, III
Attorney General/Carson City
Clark County District Attorney
Eighth District Court Clerk

Court of Appeals
of

Nevada
<G>

4

J.

A

■!

\

IBi

v

!
!

T

1 .31

f

Aff oo \(o
IN THE COURT OF APPEALS OF THE STATE'OF NEVADA

ALFRED P. CENTOFANTI, III,
Appellant,
vs.
THE STATE OF NEVADA,
Respondent.

No. 78193-COA

JUL 0 2 2020
ELIZABETH A. BROWN

CLERK OP SUPREME CCS.

BY__£?-

DEPUTY CLERK V

ORDER
This court entered an order of affirmance on June 5, 2020.
Appellant filed a petition for rehearing on June 26, 2020. Appellant has
also filed a motion for leave to amend and other relief, wherein he seeks
permission to amend his petition at a later date when he has more complete
access to the prison law library. The motion to amend and for other relief
is denied at this time. If appellant wishes to file an amended petition for
rehearing at a later date, he can file a motion for leave to do so at that time,
along with the proposed amended rehearing petition.
It is so ORDERED.

, C.J.

cc:

Alfred P. Centofanti, III
Attorney General/Carson City
Clark County District Attorney

A' <7\

&
- r>
1
..

IN THE COURT OF APPEALS OF THE STATEtOF NEVADA

ALFRED P. CENTOFANTI, III
Appellant,
vs.
THE STATE OF NEVADA,
Respondent.

No. 78193-COA

AUG 2 h 2020
ELIZABETH A. BROWN
CLERK OF SUPREME COURT

py

V
deputy clerk j

ORDER DENYING REHEARING
On June 5, 2020, this court entered an order affirming the
district court’s decision to deny Alfred P. Centofanti, Ill’s postconviction
petition for a

writ of habeas corpus. Centofanti v. State, Docket No. 78193-

COA (Order of Affirmance

, June 5, 2020). On June 26, 2020, Centofanti

filed a petition for rehearing with this court.
A rehearing may be warranted when the court has overlooked
or misapprehended a

material fact or question of law, or when the court has

overlooked, misapplied, or failed to consider controlling authority. See
NRAP 40(c)(2). However, a petition for rehearing may not be used to
reargue matters

that have been presented in previous briefs or raise points

for the first time. See NRAP 40(c)(1).
Centofanti makes several arguments in support of his petition
for rehearing. We are not persuaded.
For the first time, Centofanti contends that Chief Judge
Michael Gibbons

Court of Appeals
OF

Nevada

should have been disqualified from considering this appeal

because he participated as a district court judge at a pretrial hearing during
the criminal case proceedings in.2001.1
Rehearing is not warranted on the disqualification issue
because Centofanti raises this issue for the first time in his petition for
rehearing. See id. Further, any request for disqualification by Centofanti
would be untimely and procedurally defective. The district court minutes
indicate that on May 15, 2001, Chief Judge Gibbons, then a district court
judge, acted as a visiting judge in this case and orally denied Centofanti’s
pretrial petition for a writ of habeas corpus.

Thus, the events that

Centofanti references occurred nearly twenty years ago. Pursuant to NRAP
35(a)(1), Centofanti had 60 days from the date of docketing of his appeal of
the district court’s denial of his postconviction petition for a writ of habeas
corpus to move to disqualify Chief Judge Gibbons. However, Centofanti has
never moved to do so. Moreover, he waited until he filed his motion for
rehearing—more than one year after that deadline—to even raise the issue.
Therefore, he waived his right to object to Chief Judge Gibbons’
participation in this case. See id.. Finally, this appeal did not involve review
of Chief Judge Gibbons’ decision below, nor did Centofanti raise any issues
involving the denial of his pretrial petition for a writ of habeas corpus based
on Judge Gibbons’ decision; therefore, granting rehearing on this basis is
not warranted.
Centofanti raises the following additional issues in his petition
for rehearing: (1) this court erred by concluding the ineffective assistance of
his postconviction counsel did not amount to good cause, (2) this court erred

lOut of an abundance Of caution, Chief Judge Gibbons has voluntarily
recused himself from participating in the decision regarding Centofanti’s
petition for rehearing.
Court or Appeals
OF

Nevada
<0> I947B

2

0030
by denying his February 3, 2020, motion requesting transcripts and
additional relief, and (3) this court erred by concluding the district court
properly denied the petition without conducting an evidentiary hearing or
permitting him to conduct discovery. Rehearing is not warranted as to
these issues because this court has already considered and rejected them,
and reargument of matters that have already been considered is not a
proper basis for rehearing. See id. Accordingly, Centofanti is not entitled
to relief and we deny his petition for rehearing.
It is so ORDERED.2

,

J.

,

J.

Tao

Bulla

cc:

Chief Judge, Eighth Judicial District Court
Hon. Joseph T. Bonaventure, Senior Judge
Alfred P. Centofanti* III
Attorney General/Carson City
Clark County District Attorney
Eighth District Court Clerk

2We have considered Gentofanti’s July 13, 2020, and August 14, 2020,
motions filed with this court and grant his request for leave to file the
supplemental petition for, rehearing. We deny any additional relief
requested in these motions. We have also considered Centofanti’s
supplemental petition for rehearing, which appears to reargue the same
issues ahd, therefore, we conclude Centofanti is not entitled to relief based
on this petition. Further, we have reviewed Centofanti’s July 22, 2020,
motion in which he requests additional time to file a petition for en banc
reconsideration before the Nevada Supreme Court, which is not a request
for which we can provide relief.
Court or Appeals
op

Nevada

3

r ~:

T"

I

A?P c?o^
' IN THE SUPREME COURT C)F THE STATE OF NEVADA

No. 78193

ALFRED P. CENTOFANTI, III,
Appellant,
vs.
THE STATE OF NEVADA,
Respondent.

? i

n

SEP t e 2020
CLER
DEPUTY CLERK

ORDER GRANTING MOTION
Appellant has filed a motion requesting an extension of time to
file a petition for en banc reconsideration. The motion is treated as a motion
for extension of time to file a petition for review, and granted as follows. See
NRAP 40B. Appellant shall have until September 30, 2020, to file and serve
a petition for review. See id. If no petition is filed within this time period,
the clerk of this court shall issue the remittitur.
It is so ORDERED.1

Pitkju

cc:

J

C.J.

Alfred P. Centofanti, III
Attorney General/Carson City
Clark County District Attorney

iThis court takes no action regarding appellant’s arguments as to his
motion for an order to show cause. The court of appeals deniedAhemotion
in orders entered on August 24, 2020, and September 9, 2020.
Supreme Court
of

Nevada
/r\\ IQriA

ft
IN THE SUPREME COURT OF THE STATE “OF "NEVADA'
ALFRED P. CENTOFANTI, III,

No. 78193

Appellant,
vs.
THE STATE OF NEVADA,
Respondent.

OCT 1 4 2020
ELIZABETH A. BROWN
CLERK OF SUPREME COURT
BY------

DEPUTY CLERKO

ORDER REGARDING MOTIONS
Appellant filed a motion for leave to file a petition for en banc
reconsideration and other relief. This court construed the motion as a
motion for an extension of time to file a petition for review and granted the
motion on September 10, 2020, giving appellant until September 30, 2020,
to file a petition for review. Appellant filed a petition for review on
September 11, 2020. He also filed a “Motion for Leave to Amend Petition for
Rehearing and Other Relief and a “Notice of Errata and Nunc Pro Tunc,”
in which he asks for leave to amend the petition for review, that filing fees
be waived, and this court order he be granted physical access to the prison
law library. The motion is granted to the following extent. Appellant shall
have 14 days from the date of this order to file an amended petition for
review’. Appellant may not add to the record by attaching additional
document or exhibits. See NRAP 30(i). The record on appeal has been filed
in this appeal. This court takes no action regarding appellant’s additional
requests. The filing fees have been waived, and appellant’s motion does not
provide this court a basis to alter the lockdown restrictions at the prison.

Supreme Court
of

Nevada

AppooSl
This court takes no •action regarding" appellants' renewed
motion for an order to show cause. The court of appeals denied the motion
and appellant failed to demonstrate that reconsideration is
e.g. McConnell v. State, 121 Nev. 25,

warranted. See,

26, 107 P.3d 1287, 1288 (2005).

It is so ORDERED.

Pidanw
cc:

Alfred P. Centofanti, III
Attorney General/Carson Cit y
Clark County District Atto rney

>reme Court
of

Nevada

2

C.J.

A

■f\

'

- IN-THE-SDPREME court of-the stat-e-of Nevada
ALFRED P. CENTOFANTI, III,

No. 78193

Appellant,
VS.

THE STATE OF NEVADA,
Respondent.

fa {jeSSS

pn

sta fimP

NOV 0 8, 2020
BY,

ORDER REGARDING MOTIONS
Appellant has filed a motion for a second indeterminate
extension of time to file an amended petition for review and for this court to
order access to the prison library and a “Renewed Motion for an Order for
Access to the HDSP Law Library and Other Relief.” The motion for an
extension of time is granted to the following extent. Appellant shall have 14
days from the date of this order to file and serve the amended petition for
review. If no petition is timely filed, the clerk shall issue the remittitur.
Appellant fails to demonstrate that reconsideration of this
court’s order declining to take action regarding the previous motion for
access to the law library is warranted. See, e.g. McConnell v. State, 121 Nev.
25, 26, 107 P.3d 1287, 1288 (2005). The motions are denied.
It is so ORDERED.

H

, C.J.

Pickering

AN
Hardesty
jpreme

J.

as?'

Silver

Court

of

Nevada
1947A

- H O 6 T)

V

IN THE.SUEREME COURT-OF -THE STATE OF NEVADA
ALFRED P. CENTOFANTI, III,

No. 78193

Appellant,
vs.
THE STATE OF NEVADA,
Respondent.

DEC 0 3 2020
ELIZABETH A. BROWN
CLERK OF SUPREME COURT
BY—Q>• YO-fJCxWiA ,
DEPUTY CLERK J

ORDER
On November 6, 2020, this court granted appellant an
extension of 14 days to file and serve an amended petition for review.
Because the court’s order was not delivered to appellant until November 17,
2020, appellant has filed a motion to stay the remittitur and for
an
extension of time to file the amended petition for review. The motion for
an
extension is granted as follows. Appellant shall have 30 days from the date
of this order to file and serve an amended petition for review. No further
extensions will be granted. If no amended petition for review is filed within
this time period, this matter shall proceed on the petition for

review filed

on September 11, 2020.
It is so ORDERED.

C.J.

cc:

Alfred P. Centofanti, III
Attorney General/Carson City
Clark County District Attorney

■upreme Court
of

Nevada

£0-HZ79>O

App Qo § i
IN THE SUPREME COURT OF THE STATE OF NEVADA

ALFRED P. CENTOFANTI, III,
Appellant,

No. 78193
jp£

VS.
mew

THE STATE OF NEVADA,
Respondent.

MAR 03 2021
ESfcPUTY CLERK

ORDER DENYING PETITION FOR REVIEW
Review denied. NRAP 40B.
It is so ORDERED.

C.J.
Hardesty

Parraguirre

Stiglich

, J.

i

Cadish

Silver
(W

Pickering

cc:

Supreme Court
of

Nevada
D) 1947A

■ J.

&

J.

J.

J.
Herndon

Chief Judge, The Eighth Judicial District Court
Hon. Joseph T. Bonaventure, Senior Judge
Alfred P. Centofanti, III
Attorney General/Carson City
Clark County District Attorney
Eighth'IdrstTTcDCuurtClerk

Additional material
from this filing is
available in the
Clerk's Office.

